No.
In the
Supreme Court of the United States

Jorel Shophar
Petitioner;
v.
State of Kansas
Kansas Department of Children and Families
City of Olathe
SafeHome Inc
KVC Health
Ashlyn Yarnell, Guardian ad Litem
Layne Project
Moms Club
Moms Club of Olathe
Teena Wilkie
Audra Weaver
Krissy Ann Gorski
Respondents)

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Tenth Circuit

PETITION FOR WRIT OF CERTIORARI
Jorel Shophar, Pro se
35560 Grand River Ave. Unit 265
Farmington Hills, Michigan 48335
(248) 974-1300
Shophar@UnitedStatesChurch.info

Questions Presented for Review
1. The Mothers' parental rights are treated
superior over the rights of the Fathers.
2. Fathers' parental rights are being violated by
false allegations of domestic abuse and false
accusers are not being penalized.
3. The Panel's Opinion is contrary to the interest
of justice and contrary to the Constitutional
parental rights guaranteed to Fathers.
4. There is a discriminatory precedent against
parental rights of Fathers.
5. When justice is required, should the strategic
legal defense federal rule be applied? Should
the rule trump over justice?

i

Table of Contents
Questions Presented for Review..............
Table of Content..........................................
Table of Authorities....................................
Table of Appendices....................................
Petition for a Writ of Certiorari...............
Opinion Below.............................................
Statement of Jurisdiction.........................
Constitutional and Statutory Provisions
Statement of the Case................................
Brief Factual Background.......................
Statement of Factual Background........
Relevant Proceedings Below..................
Additional Facts.......................................
Argument.....................................................
Reasons for Granting the Petition..........
Conclusion....................................................

n

1

n
in
IV

1
1
1
1
2
2
6
14
20
22
51
55

Table of Authorities Cited
Biblical Law
Deuteronomy 1:17
17 You shall not show partiality in judgment; you shall hear
the small as well as the great; you shall not be afraid in any
man’s presence, for the judgment is God’s.
Case Laws
1.) Collins, 111 N.M. at 400, 806 P.2d at 49.
2.) Haines v. Kerner 404 U.S.519, 520-21, S. Ct. 594,
596, 60 L.Ed. 2d 652 (1972
3.) Cruz v.Beto, 405 U.S. 319, 322, 92 S. Ct. 1079,
1081, 31 L. Ed. 2d 263(1972).
4.) Picking v. Pennsylvania Railway, 151 F.2d. 240,
Third Circuit Court of Appeals
5.) Elmore v McCammon (1986) 640 F. Supp. 905
6.) Stanley v. Illinois, 405 US 645 [1972]
7.) Quillon v Walcott
8.) Morris v Dearborn
9.) Quilloin v Walcott (1978)
10.) Santosky v Kramer
11.) Lassiter v Department of Social Services
12.) Mabra v. Schmidt, 356 F Supp 620; DC, WI (1973).

in

Table of Appendices
Appendix l: United States Court of Appeals Tenth
Circuit Order entered on January 22, 2018
Dismissal for Cases: 17-3143 & 17-3144.
pg 57
Appendix 2- Clear and convincing evidence
transcript that proved Krissy Gorski falsely accused
Petitioner.
pg. 67
On audio record evidence Krissy Gorski states, I'm
not afraid that you (Petitioner) would hit me and I
never said that you did." On the contrary Gorski
makes false allegations of abuse against the
Petitioner to courts, DCF, police, KVC ...etc
Appendix 3: DCF findings
pg. 69
Jorel Shophar is unsubstaintiated as a perpetrator
of physical abuse.
Appendix 4- Forensic Mental Health Evaluation
Report result for Jorel Shophar which was ordered
by the Court........................................................... pg. 71
Report stated, "There were no indication of
physical abuse violence or aggression." "Jorel
Shophar posed no risk to his children"............
Appendix 5- United States District Court of Kansas
Memo & Order Dismissal Case: 5:15-CV-04961-DDCKGS entered June 16, 2017
pg. 73

IV

Appendix 6- United States District Court of Kansas
Amended Memo & Order Dismissal for 5 Defendants
Case: 5:l6-CV-04043-DDC-KGS
entered May 28, 2017
pg. 128
Appendix 7: United States District Court of Kansas
Memo & Order Dismissal for 1 Defendant - Case:
5:i6-CV-04043-DDC-KGS
entered May 23, 2017
pg. 176
Appendix 8: United States District Court of Kansas
Memo & Order Dismissal Final - Case: 5:16'CV04043-DDC'KGS entered June 12, 2017
pg. 204

Note: All appendixes were also submitted as evidence in all the
Kansas Courts: Johnson County Court, Kansas Federal,
Kansas Appeal, Kansas Supreme Court including to all
Defendants.

v

Petition for a Writ of Certiorari
I, Jorel Shophar, a Father and a representative of
United States Church, respectfully petitions for a
writ of certiorari to review the judgment of the
United States Court of Appeals for the Tenth
Circuit.
Opinions Below
The Order and Judgment of the United States of
Appeals for the Tenth Circuit affirmed the orders
dismissing Jorel Shophar's complaints based on the
Defendants' strategic defense "Failure to state a
claim."
Statement of Jurisdiction
The judgment and order of the Court of Appeals was
entered on January 22, 2018.
Constitutional and Statutory Provisions
First Amendment to The United States Constitution:
Congress

shall

make

no

law

respecting

an

establishment of religion, or prohibiting the free
exercise thereof; or abridging the freedom of speech,
or of the press,' or the right of people peaceably to
assemble, and to petition the government for a

1

redress of grievances.

Fourteenth Amendment to The United States
Constitution
No state shall make or enforce any law which shall
abridge the privileges or immunities of citizens of
the United States; nor shall any state deprive any
person of life, liberty, or property, without due
process of law; nor deny to any person within its
jurisdiction the equal protection of the laws.
Statement of the Case
I. Brief Factual Background
Petitioner is a victim of false domestic abuse
allegations and a victim offraud of the Court. The
false accuser is Krissy Gorski, natural mother of the
Petitioner's two sons that are now 6 and 5 years old.
The

natural mother took Petitioner's

children

unlawfully out of his home on August 12, 2015.
Natural mother maliciously committed perjury of the
Court and fraudulently used the resources funded by
the

Federal

Government

for

" true

victims

domestic violence and deceitfully used

2

of

County

Courts, State Actors, State Agencies, non-profit
organizations,

Police

Departments,

to

illegally

deprive and violate the Petitioner's constitutional
rights to his children with the ultimate malicious
goal to terminate Petitioner's rights to his sons, to
defraud the father for money for life.
Clear and convincing evidence proved that the
natural mother fraudulently made false allegations
against the Petitioner. [View Appendix 2] However,
against the interest of justice the natural mother
was not penalized for perjury of the court or for
fraudulently using Federally funded resources to
illegally gain custody of the Petitioner's children.
On the other hand, Petitioner was deprived the
rights to his children without any findings or any
conviction of any wrongdoing. The Petitioner was
never declared unfit and always demonstrated
commitment to his sons therefore, any deprivation
violated his due process right.
Quillon v Walcott, the Supreme Court ruled: “If a state
were to attempt to force the breakup of a natural family,
over the objection of the parents and their children,

3

without some showing of unfitness and for the sole reason
that to do so was thought to be in the children’s best
interest, ”
Therefore, Petitioner filed his grievances in the
Federal Court of Kansas, for violation of his
Constitutional rights to his children without proper
due process or probable cause.
In retaliation of Petitioner's lawsuits in the Federal
Court, the respondents immorally conspired a plan
to protect the natural mother and joined with her
malicious

and

fraudulent

campaign

of

false

allegations against the Petitioner, which ultimately
resulted in obstruction of justice and fraud of the
Court with participants such as State Actors, Court
appointed GAL, State Attorney, State Officials, State
Agency DCF, Court appointed Therapist, Court
appointed

County

programs,

non-profit

organizations... etc
The

respondents

conspired

a

plan

to

falsely

mischaracterize and condemn the Petitioner using
the County Court system fraudulently in order to
discredit the Petitioner's claims and to ultimately

4

strip the Petitioner's custody rights to his children in
order to avoid liability for their misconduct and
liability for failing to protect the Petitioner's children
under the residential care of the natural mother.

Within the County, fraud of the Court was allowed
which

included

suppressing

unlawfully

evidence,

false

concealing

and

documentation

to

mischaracterize the Petitioner, allowing perjury
although evidence revealed the truth of false
allegations, issuance of orders that violates Federal
law to deprive Petitioner's rights to his children,
conspiracy plan to incriminate Petitioner with
submission of false reports, false documentation,
false motions, false statements, false witnesses, ambushed
proceedings devoid of a proper discovery process, tampered
evidence allowed on record, devoid of impartial trials,
motions deliberately not heard, denied motions for change of
venue 4 times, Petitioner's motions were not docketed,
appeal sabotage by strategic case being prematurely dismiss
by the County Judge to cause the appeal to become moot.

5

Krissy Gorski has a criminal record of 12 court felony record
in the State of Michigan and was found unfit in Court
proceedings of Oakland County Court of Michigan, which
ultimately lead to the State of Michigan placing the mother
on the National Registry of Abuse and Neglect of a Child,
and rights to one of her children were TERMINATED by the
State of Michigan,

however, the state actors in Kansas

learned of Krissy Gorski's record and adjudications of
Oakland County Court of Michigan and suppressed the
findings with willfully and wanton conduct, placed children
in her care to avoid liability of the Federal Lawsuit filed first
on November 18, 2015. And now after all the events the
children have been Sex Trafficked under mother's care, but
state actors now even covered up the reckless and devouring
conduct of Krissy Gorski and the children remain in danger
while the father has been devoid of any knowledge of his
children to this very day.

Statement of the Factual Background
Krissy Gorski is the natural mother of Petitioner's 2
sons: JS now 6 years old and BS now 5 years old.
Gorski is a Caucasian female with a criminal background,
12 count felon, had a 10-year history of heroin, crack,

6

cocaine, pain killers, prostitution, sex trafficked slave and
on the National Registry for Child Abuse for child neglect
for losing parental rights to a child in Michigan. Mother
was previously declared an unfit mother in 2009.
Jorel Shophar, Petitioner, natural father to JS and
BS.
Petitioner is a father to 5 children and has never
been declared an unfit parent. Petitioner is African
American male without a criminal history. He is a
son of a preacher and was raised in Biblical
principles from his youth; a Minister of the Gospel,
professional artist and a business entrepreneur.
The collision pathway of Shophar and Gorski
Although from two extremely different backgrounds,
Petitioner and Gorski's pathways collided for a cause
that many question or prejudge.

However, the

collision extended the life of Gorski who was at risk
of an overdose of heroin.
In the year of 2010, Petitioner met Krissy Gorski
while conducting a private investigation of drug
distribution

in

the

City

7

of

Detroit,

through

Petitioner's formal security company.

Gorski was

soliciting herself on

Petitioner's

Backpage.com.

investigation concluded that Gorski was a sex slave,
being trafficked by criminals and had a severe case
of heroin addiction.

Gorski had a dysfunctional

family

that

upbringing

contributed

to

her

destructive lifestyle of drug abuse of crack, cocaine,
heroin

and

prescription

drugs

that

resulted

becoming a captive to support her addiction through
being a sex slave.

Petitioner

through

his

investigation

witnessed

Gorski's captors, her addiction, and close to death
appearance weighing 90 pounds,

Gorski if not

rescued, would have died as her body showed signs
of heroin inundation.

Gorski was forsaken and rejected by her family,
friends, rehabs centers, church and even her drug
user friends.

Gorski's chronic drug abuse and

lifestyle was declared by many as a lost case with no
redeeming hope.

8

Petitioner as a man understanding the mercy of
Christ, had compassion on Gorski and could not find
it in his heart to forsake her in a dying state.

In

addition, Gorski continually cried out to Petitioner to
take her into his already formed family.
Gorski's prayer was to have a home and family, /
the Petitioner made the determination to take
her from the streets based on the Law of Grace
wherewith I live by through interpretation of the
Holy Bible (Luke 4-18 to set at liberty them that
are bruised) and practice through the United
States Church.

Gorski's rehabilitation
Petitioner in 2010 finally took Gorski from her
captors of Detroit and created a rehabilitation
environment to save her life.

During the course of Gorski's recovery, Petitioner
and Gorski developed a relationship and had 2 boys.

Gorski, with the support and help of the Petitioner,
developed and lived a productive life. Gorski learned

9

to become a mother, cared for a household and
returned to school to attain a degree on Psychology.
Gorski would be clean for 4 years and 7 months.

Under the care of the Petitioner, from January 1,
2011 to August 12, 2015 Gorski was free from drugs
and they made plans to open a Rehabilitation
Program in the State of Kansas in her 7th year of
Gorski being drug free.

The name of the center

would be named "Sariah's Hope" meaning new
beginning.

In the process of time, after Gorski was released
from parole and probation, Petitioner and Gorski
transitioned to the State of Missouri and finally to
the State of Kansas, with the Petitioner's intend to
open a church in Topeka, Kansas with many facets
to help the community.

The Opioid Destruction another form of Heroin
In the month of April of 2015 and July of 2015
Gorski had outpatient operations in the Olathe
Medical

Center in Kansas.

10

Gorski was not

transparent regarding her pass heroin abuse. The
doctors prescribed pain killer carelessly and with no
supervision at the continual request of Gorski. The
doctors even ignored the signs of pain killer abuse
even after Gorski was admitted into the hospital on
July 29, 2015 when Gorski experienced chest pains
due to abusing her pain killer meds. Instead at the
request of Gorski, at the hospital, Gorski was given
more pain killer in another form, through oral
oxygen, and later that day given more opioids.

The prescription was only supposed to be for 7 - 10
days. However, Gorski received refill after refill. On
July 12, 2015 Gorski showed obvious conduct signs
of being high on her pain killer medication. Within a
process of time, her weight changed, behavior
became erratic, and began abusing the children with
kitchen utensils and stole household money.

Gorski even went to the extend and choked the
Petitioner's son JS because he repeatedly requested
for something to drink.

Petitioner witnessed the

11

incident and immediately intervene and removed the
children from the care of Gorski.

Petitioner told Gorski he would call the police for
choking their son however,

Gorski threatened

Petitioner if he called the Police or tried to get her
help for treatment, she would turn the claims
against the Petitioner and make his life "a living
hell." Inferior to her threat, due to the visible
tension played out on the media regarding officers
and African American males, the Petitioner did not
seek that avenue to protect his children. In addition,
Petitioner also wanted to protect Gorski because she
was a convicted felon.

Instead, the Petitioner found

other means to protect his children and had a care
giver continually watch his children and Gorski.

On August 8, 2015 Plaintiff informed Gorski that he
was seeking to get full custody to protect his children
from her.

Three days later on August 12, 2015 Gorski took
Petitioner's children illegally, while he was at work

12

and conspired a malicious plan with her stay at
home Olathe Moms group, to hide his children and
strip away his parental rights with a contrive plan of
false allegations.

Petitioner made the appropriate protocol steps to
protect his children and called the Olathe Police
Department,

Kansas DCF and Michigan DCF.

Petitioner informed them that Gorski was abusing
opioids and abusing his children with kitchen
utensils.

Also Petitioner stated he had witnessed

Gorski choke their son. In addition, informed them
of Gorski chronic pass of heroin and crack cocaine,
prostitution and that she loss a child in the state of
Michigan. • Petitioner clearly stated the children
were at risk under her care.

False Allegations of Domestic Abuse

targeted

against Fathers to gain and violated their parental
rights.
Krissy Gorski carried out a series of actions of false
allegations, false accusations against the United
States Church and the Petitioner. Gorski maliciously

13

made false reports against the Petitioner in Johnson
County Court, false police reports, false DCF hotline
calls, false reports to a Domestic violence shelter;
Safehome, Inc, false reports to the Attorney General
of Kansas to extort Crime Compensation Insurance
money, reporting false claims and documents to
Kansas

unemployment

Petitioner’s

business,

system
false

against

reports

to

the
KVC,

promoting a false campaign of domestic abuse on
GOFUNDME.com extorting money from the public,
to accomplish Gorski plan to terminate Petitioner’s
parental rights using the domestic violence resources
fraudulently.

II. Relevant Proceedings Below
On August 12, 2015 Krissy Gorski filed a fraudulent
Protection Order of abuse against the Petitioner.
Gorski had no evidence, no police report or witnesses
to her support her claims. In violation to Fourteenth
amendment due process clause, Petitioner was
deprived rights to his children.
Father enjoys the right to associate with his child
which is guaranteed by the First amendment as

14

incorporated in Amendment 14, or which is
embodied in the concept of "liberty” as that word
is used in the Due Process Clause of the 14th
Amendment and Equal Protection Clause of the
14th Amendment. See Mabra v. Schmidt, 356 F
Supp 620; DC, WI (1973).
On August 17, 2015 Petitioner brought a cross
petition PFA in Johnson County Kansas to protect
his children from the mother and protect his name
from false allegations.
already

established

Although Paternity was
through

birth

certificate

documentation and confirmed by the natural mother,
Petitioner was directed by Judge Gyllenborg to file a
paternity case and his PFA petition was not heard or
granted.

On September 2,

2015

Cross protection order

petitions for Petitioner and Gorski were heard before
Judge Thomas.

No evidence or witnesses were

allowed to be presented. UA tests were conducted on
both parents.

Gorski tested positive.

Although

Gorski was in a shelter, unemployed and tested
positive, Gorski was given sole custody of the

15

children.
On the contrary Petitioner, had a home, employed,
negative drug result, and there were no finding
abuse or violence by DCF report as alleged by
Gorski. Against the interest of justice and without
proper due process, Petitioner was deprived rights to
his children.

Petitioner was placed on supervised

visits without a legal basis. There was no findings of
abuse or violence. Case was continued.

September 17, 2015 DCF Investigation determined:
Jorel Shophar was unsubstantiated as a perpetrator
of physical abuse. [View appendix 3] All of Gorski’s
false allegations of abuse against the Petitioner were
unfounded.

Petitioner was still deprived access to

his children.

On September 28, 2015 Cross petition PFA and a
paternity case were heard before Judge Gyllenborg.
Petitioner's due process rights were violated again.
Discovery process was not distributed according to
procedure. Gorski's Safe Home Attorney ambushed

16

the court on the day of the hearing.

Tampered

evidence was only presented in the chamber of the
Judge Gyllenborg and not in the court proceeding to
be placed on record.

Petitioner was not given a fair and impartial
proceeding.

Due process was violated, Petitioner

was not allowed to controvert the evidence or was
not allow to presented his evidence, however, was
mischaracterized as an abuser to a child and a
woman. Both Petitioner and Gorski dismissed their
PFA based on the instruction of counsel.

Although

both parties dismissed their PFA and there was no
findings of abuse or neglect by DCF investigation,
Judge Gyllenborg removed the children from the
mother's care who was in a shelter.

The children were deprived from the Father and
placed in Foster Care. Judge Gyllenborg's fact
finding did not constitute a just decision, and was in
contrary to the best interest of the children and the
parent's interest.

17

"Since the State has an urgent interest in the
welfare of the child, it shares the parent’s
interest in an accurate and just decision" at the
factfinding proceeding. Lassiter v. Department of
Social Services, 452 U.S., at 27 . Santosky v.
Kramer. 455 US. 745. ... reasoning that "the
removal of a child from the parents is a penalty
as great [as], if not greater, than a criminal
penalty. ..." the parents is a penalty as great
[as], ifnot greater, than a criminal penalty. ..."
Gorski as the mother was given the right to make
the placement decision with her friend Teena Wilkie.

On November 17, 2015 mother signed parental
waiver form to DCF to keep the children in DCF
custody. By the signature of the waiver, Gorski as
the

mother

became

a

non

consenting parent

however, Petitioner was the consenting parent.
Again, was deprived his children.

December 17,

2015 DCF, KVC,

GAL,

District

Attorney received the comprehensive background
report and Michigan DCF report for Krissy Gorski.

18

This evidence proved that the children were a risk if
placed under her care.

Instead of protecting the children,

the

actors

vigorously pursuit to swiftly reunify the children
with Gorski by approving unsupervised and then
overnight visit in order to close the case out and
avoid liability due to Petitioner's lawsuits. On the
contrary

the

respondents

mischaracterize the Petitioner.

conspired

to

The Petitioner was

deprived visits and forced to have no contact with his
children until he conducted court order Psychological
evaluation.

In January of 2016 the Petitioner's children were
reintegrated with the mother before the trial date
that was scheduled for February 2016 which violated
the due process right of the Petitioner. The officers
of the court and state officials committed fraud of the
Court in order to cover up Gorski's risk factor pass.
The Petitioner was not allowed a fair and impartial
trial.

19

Court order

Psychological Evaluation was

not

allowed on court record by the judge and grossly
objected by officers of the court. The report was
positive and proved the Petitioner was not a threat
to his children or violent. [View Appendix 4] The
children were allowed to be placed under the
residential care of the mother and the Petitioner was
deprived his children; placed on supervised visits
with no legal right according to the law.

Petitioner

filed

for

an

appeal

to

challenge

deprivation rights to his children. In June of 2016
after receiving notice by the appeals court, Judge
Sloan closed the CINC prematurely against her own
final order in order to avoid the appeal. Due to the
closure of the case, the appeal became moot.

Petitioner filed for review to the Kansas Supreme
Court. Denied as moot.
III. Additional Facts
Petitioner’s attempts to find resolve for controversial
issues-

20

1.

Johnson County Court, Kansas

2.

Douglas County Court, Kansas

3.

Shawnee County Court, Kansas

4.

Appeals Court of Kansas

5.

Supreme Court of Kansas

6.

Federal Court of Kansas

7.

10th Circuit United State Federal Court of
Denver

8.

Oakland County Court, Michigan

9.

Wayne County Court, Michigan

10.

Michigan Federal Court, Detroit

21

ARGUMENT
Since 2015 of August, Petitioner has sought through
the Kansas legal system to protect his children from
harm, to clear his name from false allegations and
for true justice. Regardless of his quest, he has not
been afforded any justice or review in any of the
Courts. There are controversial issues that have not
been resolved, his children have ultimately been
sexually exploited under the residential care of their
mother, his parental rights are still deprived without
a legal basis.
Mr. Shophar is one out of many men, many fathers
that are not given the opportunity to a fair and
impartial trial, discriminated against, denied due
process, denied equal protection of the law, not
afforded an appeal, and deprived the right to be a
father to his children without a legal basis.
This is a national dilemma across the United States
that plagues the fathers of the United States.
Fathers are not given the equal protection according
to the law when it pertains to rights to their
children.

Throughout lower court proceedings

22

Fathers are treated and considered estranged and
must fight hurdles and hoops to be acknowledged as
, the Father.

Thereafter, they must fight within the

legal process by being forced to complete court
services

mandatory

that

are

contrary

to

the

Constitution to even have visits with their children.
Even at times, having minimal time or no time at all
with their own children yet are required to pay large
amount of child support to the mother. The scales are
not balanced in the lower county courts and mothers
weigh at the top of the scale as the father weighs at
the bottom. This is against the Constitution at its
core. A father is just as capable of raising children.
A child has an equal right to be raised by the
Father, and must be awarded to the Father if he
is the better parent, or Mother is not interested.
STANLEY V ILLINOIS, 405 US 645 [1972]

By statistics alone proves that the presence of a
Father is vital to a child's development, growth and
success. The legal bias and prejudice against men
and fathers has become a conspiracy to removing the
fathers from their children's lives which is the

23

structure to a child's life.

As the family unit

deteriorates, the States profit as they receive
Federal Funding but ultimately fail to help the
family unit due to greed and corruption. Fathers are
labeled as abusers, but studies show that 90% of the
allegations are usually false against fathers.
Mothers on the other hand freely and immediately
are granted custody and have no required process to
gain access to their children.
I. The Panel's Opinion is contrary to the interest of
justice and contrary to the Constitutional parental
rights guaranteed to Fathers.

The order and

judgment sets a discriminatory precedent against
parental rights of Fathers.
A. The Introduction
The order and judgment issued by the 10th Circuit
Court clearly supports Petitioner's argument and his
experience in the Courts; Fathers' rights are least
esteemed

and

mothers'

rights

are

treated

as

superior. The panel's interpretation clearly depicts
the

Petitioner's

argument.

The panel's intro

statement begins with, "Krissy Gorski took the

24

children and made her exodus from the family home
she shared with Jorel Shophar a child custody
dispute ensued."

Thereafter, the panel depicts

Shophar as being unhappy with the outcome of how
the custody was handled by various of actors and
sought to bring cases of what he perceived wrong.

According to Constitutional law, both a mother and a
father have equal rights to their children. The
fundamental rights of natural parents whether it be
a mother or father cannot be deprived without the
proper protocol of the due process guaranteed by the
Fourteenth Amendment.

Of course we cannot

dispute who is the mother but a father can have two
opposing forces that can interfere with his parental
rights; l) the mother 2) Family Court that includes
unconstitutional procedurals, policies, required court
services...

According to Kansas Stat. §§ 23-2205; 23-2208: A
man is presumed to be the father of a child if:
•

The man has acknowledged paternity of the
child in writing.

25

•

With the man’s consent, he is named as the
child’s father on the child’s birth certificate.

The Petitioner met the requirements of the Kansas
Statute before entering into the legal arena of the
family court. Petitioner by law and by Kansas Statue
was the legal father; Petitioner had rights to his
children when Krissy Gorski unlawfully took his
children out of his home on August 12, 2015.
Therefore, any deprivation or denial of his children
violated his parental rights.
According to the Constitution, any infringement of
parental rights is a violation when due process has
not been afforded,

Petitioner's cases were not

brought before his perception of wrongs but was
brought forth for misconduct by the Defendants that
violated his Constitutional right as a Father,

The

panel's opinion states that the District Judge
appropriately dealt with the legal issues and affirms
the dismissal of Shophar's complaint. The opinion
disregards Constitution law but leans on the side of
a rule that the Defendants presented for their

26

defense using the strategic legal defense "failure to
state a claim."
These strategic defense afforded the Defendants to
avoid

answering

the

claims

and

eventually

continued violating the Petitioner's parental rights
and used their titles, position and power to silence
the Petitioner's cry for his parental rights and justice
for his children. The panel fails to mentioned that
the District judge allowed submission of Petitioner's
evidence that supported his factual allegations.
Both the District Court Judge and the panel Judges
had more than just the Petitioner's claims but had
the actual audio recording evidence that Krissy
Gorski indeed committed Fraud of the Court to
violate the parental rights of the Petitioner. In
addition, the Defendants also received the audio
recording that proved Krissy Gorski falsely accused
the Petitioner of domestic violence to violated and
gain custody of the Petitioner's unlawfully and
maliciously by Fraud of the Court. [View Appendix
3]

27

Against the interest of justice, the Defendants
choose to assist and support a false accuser by
suppressing evidence,

lying on documentations,

reports, court proceedings, and ultimately covered
up

Krissy's

prostitution

conduct

and

child

exploitation of Petitioner's children. Defendants
unlawfully deprived Petitioner rights to his children.

B. BACKGROUND
The interpretation of the background presented by
the panel portrays the mother as a victim but fails to
mentioned the evidence that the Petitioner included
that support his allegations.

In the Petitioner's

pleadings in County Court, Federal, State Supreme
Court, and State Appeal Court provided many
factual claims and was supported by evidence.
Every defendant named in his pleadings received
evidence

that clearly proved

the

mother had

maliciously made false allegations and fraudulently
used County Court's platform to committed Fraud of
the Court and against the interest of justice, State
Agencies,

State

Actors,

28

State

Officials,

Court

Services, supported, protected and assisted Krissy
Gorski fraudulently used Federally funding domestic
violence

resources

and

failed

to

protect

the

Petitioner's children.
As we read further into the order, the panel makes a
depiction of the Petitioner as an abuser inserting a
one side view point. Stating Krissy Gorski left to a
domestic shelter.

Thereafter, stating DCF began

investigating Shophar. The interpretation attempts
to make the Petitioner seem as if he has unclean
hands. When in contrary, the Petitioner is an
innocent victim to a false accuser.

His name,

character and reputation has been tarnished without
a fair and impartial trial.

However, the greatest

damaged has occurred to the children's lives. Under
the residential care of the mother, the children were
exposed

to

criminal

activities

which

includes

prostitution, drugs, exposure to advance sexuality
and ultimately have been exploited.
In August 8, 2015, Petitioner had a meeting with
Gorski along with family witnesses
recorded the conversation.

29

and

also

Petitioner informed

Gorski he was looking to get full custody of his
children due to her continual threats to take them
away from Petitioner.

Gorski had begun abusing

opioids and the children. Three days later on August
12, 2015 Gorski took the Petitioner's children from
his home with malicious intention to gain full
custody

through

a

fraudulent plan.

Petitioner

immediately called the police and made a report
with DCF that the children were at risk under the
care of Krissy Gorski due to her opioids abuse,
prostitution history, history of heroin abuse and
previously lost a child in the State of Michigan.
Petitioner's report initiated the investigation on
Krissy Gorski. In the absence of a court order,
probable cause or a legal right, Moms club, the
Olathe Police Department, and DCF deprived the
parental right to the Petitioner by not disclosing the
whereabouts of his children.

Thereafter in retaliation, Gorski filed a fraudulent
protection order for domestic violence

without

evidence, made a false police report for child abuse,
made false report to DCF (8 times).

30

Gorski did not

go immediately into the domestic violence shelter
but stayed with Olathe Moms group members'
homes. Upon the malicious false claims of Gorski,
DCF then began to investigate the Petitioner.

Petitioner provided substantial evidence that proved
Gorski falsely accused him. As a result, all Gorski's
false allegations of domestic and child abuse was
unsubstantiated by DCF.

There were no findings

determined by the Police, DCF or Sunflower. In the
beginning of September of 2015, Petitioner brought
forth claims that Gorski returned to the life of
prostitution and drugs while resided in the Safe
home domestic violence shelter while the children
were under her care.

Petitioner had evidence to

support his claims. In addition, Petitioner had clear
and convincing evidence by admission by Krissy
Gorski that she falsely accused the Petitioner in
order to gain custody unlawfully, support and
financial means.

On September 28, 2015, to protect the interest of the
shelter, the Safehome attorney against the interest

31

of justice brought forth faulty tampered evidence
that Gorski provided to incriminate the Petitioner
again of child abuse. The attorney violated the
discovery process by ambushing the Petitioner on
the day of the hearing.

The evidence was never

presented but was presented to Judge Gyllenborg
behind closed doors in her chambers off court record.
The Judge did not require proper protocol procedure
but viewed the evidence willingly in her chamber off
court record.

As a result, the judge made an injustice decision and
placed the children into state custody. There was no
probable cause, no findings of abuse or neglect or
declaration of parental unfitness that supported the
decision. The cross petition protection orders were
dismissed by both parents. There were no findings
by DCF of any abuse. Gorski was definitely not in
the

position

to

care

for

the

children

being

unemployed and in a shelter.

On the contrary, the Petitioner was the parent fit to
care

for

the

children

32

having

employment,

transportation and a stable
siblings.

Petitioner's

home with other

due process rights

was

violated. DCF placed the children with a friend of
Gorski Teena Wilkie who was not a license Foster
parent. DCF only inquired the placement request of
Gorski and excluded Petitioner's right as the father
for placement decision.

September 29, 2015 Judge Sloan placed the children
in foster care with Teena Wilkie who was an
unlicensed foster parent and was the friend of
Gorski who removed the Petitioner's children from
his home unlawful making a conflict of interest
placement. Judge Sloan instructed an investigation
on

only concerns

which DCF unsubstantiated

through report findings. It was claimed on DCF
records that the Court removed the children from
parents due to protection orders,

However, the

protection orders were dismissed mutually by both
parents. Therefore, the Court did have the legal
right to remove the children from parental care.
Especially, from the Petitioner as the Father who

33

P£

oj sassaujpvv siq

jo

qjiM pajBaiunraraoo
•sj]/\[ ‘Ajbjjuoo aqj
SuiuiBjqo
qjiM

sjjbo

sjobjuoo

jaqjBj aqj

sb

jauoiqjaj aqj

jo

pajOBjuoa aouo jaAau qaujBy

uq

qunoooB puB suoijBSaqB jaq

auoqd puB jiBuia ‘uosjad Aq iqsjo*}
puB uoijBoranrauioo apBiu qaujBj^

•os op oj pa|iBj qaujBy ‘uoijBSijsaAui juapuadapui
ub

papnpuoo oj you ajn^j

s^sub^j

Xq pajmba'q

'OP ?vpZd908 ‘OOP W IAIN ITT
‘sui[{oj

„ -pfrifo aqi jo sjsa.iajui aq? Sui^aajo.id

jo Xpip sji yno SuiA.i.isa

ui

?jnoo aq? jsisss;>

oy pauSisap si pus ‘juopuadapui jnq ‘[Bi.ws.iaAps
jou si ajo.i s^yj) aqj
aqj Sui^aajjs saa.ioj aqj

-s^sa-iajui ysaq stpfiqo
jjs jo

jqdisjaAO apiAOjd oy

pus saijnp .iiaqi jo qwd s ss ajsdrjsaAui o? ajijsjs
dq pa^spusm a.m S'jyp) ‘a.ioja.iaqj ‘pjsnSajss s sy
•Bpua§B

snotoqBra jaq puB iqsjo*)

joj

ajBOOApB

ub

auiBoaq

‘jaAaMoq uajpqqo aqj jo jsajajui jsaq aqj jaajojd
cq qyf) s,uajpqqo aqj pajuioddB

sbm

qaujBy uXjqsy

•uajpqqo siq joj 3jbo oj suBara
XjBSsaoau aqj pBq puB ajqBdBO juajBd aqj

sbm

obtain his side of events and accounts. Yarnell failed
to protect the children by refusing evidence and
suppressing evidence that proved the children were
at risk under the care of Krissy Gorski.
According to Bonds, 64, N.M. at 345,328 P. 2nd
at 599 the appointment as guardian ad litem of a
minor child is in the position for the highest
trust and no attorney should ever blindly enter
in an appearance as guardian ad litem and allow
a matter to proceed without a full and complete
investigation into the facts and law so that his
clients

will

represented

be
and

fairly

and

their

rights

competently
fully

and

adequately protected and preserved....
On the other hand, Mrs. Yarnell would not allow for
the children to be placed or visit at the Petitioner's
home based on his belief in the Bible violating his
first amendment right and his parental rights.

Shophar was able to visit his children through Layne
Project for about 1 month until the children were
placed in state custody. This agency is appointed by

35

the county court and payment is required in order
for supervised visits to be allowed. This permissible
visitation does not comply with parental rights of the
Petitioner protected by the Constitution.

In order for Petitioner to visit his children, there was
mandatory payments for the Petitioner and only one
visit a week for a couple of hours. On the contrary,
the mother was not required to pay for visits and her
request and rights were only regarded by Layne
Project not the Petitioner. Thereafter Layne Project,
Petitioner was limited and deprived visitations by
DCF, KVC, GAL and the county court without legal
basis. There was restriction for the Petitioner as the
Father with continual requirements however, the
mother had continual steady visits with the children.

I. Appeal No. 17-3143
Shophar filed his federal lawsuit against City of
Olathe, Safe Home, Layne Project, KVC Kansas and
Yarnell due to the violations to his Constitutional
rights as a Father to his children.

All of the

Defendants by evidence were aware that Krissy

36

Gorski falsely accused Petitioner and there was no
legal basis to deprive his children from him.
Petitioner's Biblical views along with his gender
caused the Defendants to discriminate and violated
his rights to his children. Therefore, the Petitioner
brought his case to the Federal level for the
continual constitutional parental right violations
conducted in the lower court,

The Defendants

refused to admit or deny the Petitioner's allegations
but moved the Court with strategic defenses.

The

Petitioner

was

permitted

to

amend

his

complaint and the District Court, stated, " The Court
does not wish to deny Plaintiff his day in Court."
This statement only could imply that there was some
sort of injustice that took place and that the
Petitioner's factual allegations

asserted in his

complaint did have some merit deserving of a trial.
In addition, the evidence that was submitted by the
Petitioner clearly demonstrated Fraud of the Court
by

Krissy

Gorski

and

Defendants;

it

also

demonstrated clearly that the Defendants knew
Gorski's falsehood but refused to regard justice by

37

depriving Petitioner his children unlawfully and
endangering his children.

The Petitioner as pro se amended his complaint
provided sets of facts that depicted the conduct of the
Defendants in depth details such as dates and
specifics accounts of the matter.

Petitioner also

structured the complaint with heading and titles
that included claims and violations of the law and
the result due to the violations. Once again the
Defendants

refused

to

answer

or

deny

the

allegations asserted by the Petitioner but moved the
court for the strategic motion to dismiss defenses
and hid behind the immunity defense.

II. Appeal No. 17-3144
In April of 2016, Shophar filed another pro se federal
suit due to the Defendants;

State of Kansas

Assistant District Erica Miller, DCF, KVC, and
County Court officials for their judicial misconduct
to violated the parental rights of the Petitioner and
for failure to protect his children from the risk being
under

their

mother's

care.

38

Petitioner

added

additional history to provide the Court with a well
rounded scope of the case. The history of the Church
that played a role in assisting Krissy Gorski
regardless

of her pass,

The

history of the

investigation that Petitioner conducted in Michigan
which gave the Court a scope of how Petitioner cross
path with Krissy Gorski and the reason he chooses
to help her.

The history of the plan to open a

rehabilitation goal in Kansas and how the actions of
Krissy Gorski returning to her dark passed and
taking the Petitioner's children which ruin the goal.
The Defendants even as their constituents, refused
to deny or admit the allegations but moved the Court
with strategic legal defenses "failure to state a claim
and hid behind the immunity."

Parental rights violations included not allowing the
Petitioner to visit his children, withholding medical
or school records of the children, depriving any
information

about

the

children's

welfare

and

depriving parental consent for decisions for his
children.

39

In retaliation to the Petitioner's first federal lawsuit
filed in November of 2015 that included their
constitutes, State of Kansas and DCF conspired with
their constitutes to placed the children back with the
mother before

a trial was

conducted and to

mischaracterize the Plaintiff as an unfit mental
unstable father in order to discredit his federal
lawsuits and to deprive him rights to his children all
together. Petitioner included evidence to support his
allegations.

The Petitioner was not afforded the opportunity to a
fair and impartial trial and the children were placed
into the home of the mother after the Defendants
received Krissy Gorski's comprehensive report from
the state of Michigan and before the February of
2016 trial was conducted.

Although Defendants

knew the children were at risk under the residential
care of the mother, the children were placed
unlawfully without the proper protocol of due
process.

40

On May 22, 2016 Petitioner motioned the District
Court to submitted conventional evidence that
support the factual allegation that Krissy Gorski
committed fraud of the court.

Evidence clearly

proved that Krissy Gorski lied about false domestic
abuse and all of the Defendants against the interest
of justice helped her commit the fraud willfully and
wonton

and

deprive

the

Petitioner's

children

unlawfully.

In June of 2016, the District Court granted the
evidence

that

supported

Petitioner's

factual

allegations. Thereafter, the Petitioner requested to
amend the complaint in order to add joinders that
were responsible for the beginning point of the
deprivation. Joinders included were Krissy Gorski,
Moms Club Olathe, Teene Wilkie and Audra Weaver
who initially removed the children out of the
Petitioner's home illegally.

On July of 2016 the

Court granted the amendment and allowed for the
joinders to be added.

41

Krissy Gorski did not answer the lawsuit but
continued to make false allegations in the County
Court platform,

On August 12, 2016 Petitioner

motioned for a Clerk's entry of Default. On August
16, 2016, Clerk set aside claiming improper service
but the summon was submitted to Kansas Legal
Service attorney for Krissy Gorski assigned by the
County.
On August 17, 2016 Petitioner attempted to
service Krissy Gorski at the County Court house
however, Judge Gyllenborg did not allow Petitioner
and Krissy Gorski and Kansas Legal Attorney
refused the complaint alright. Finally, in December
of 2016, Petitioner during a motion hearing with the
Chief Judge of Johnson County was obligated by the
Petitioner's challenge of his constitutional right to
serve Krissy Gorski, the chief judge directed Kansas
Legal Attorney for Krissy Gorski to submit the
Federal Lawsuit to her.

On December 28 2016, Krissy Gorski answered the
complaint full of false allegations with no supporting
evidence

and

malicious

42

statements

to

mischaracterize the Petitioner before the Federal
Court.

Krissy Gorski did not controvert the audio

evidence proving that she maliciously falsely accused
the Petitioner.

The response was prepared by a

legal ghost writer but Krissy Gorski’s lawsuit did not
disclose the lawyer who assisted.

Instead Gorski

signed off as a pro se litigant misleading the Court.
The defendants again moved to dismiss claiming
failure to state a claim or immunity. This time, the
district court granted the motions and entered
judgment against Shophar.

DISCUSSION
When justice is required, should the strategic legal
defense federal rule be applied?

Should the rule

trump over justice?
The panel's decision to affirm the District Court's
decision is against justice,

There are different

pleading standards that were able to be applied.
Such as Conley v. Gibson that, “a complaint should
not be dismissed for failure to state a claim unless it
appears beyond doubt that the plaintiff can prove no

43

set of facts in support of his claim which would
entitle him to relief’.

We understand that this

standard is old but if it allows for justice than it is
better than the new standard that was applied in
this case.

If this standard would have been

considered, the Plaintiffs case would have survived
the motion to dismiss. Petitioner had plenty of
factual facts along with evidence to support his
claims. Petitioner proved his case beyond a doubt
and was entitled to relief. The panel and the District
Court choose to agree with the legal analysis of the
Defendants, agreeing with their pleading standard.

The Court failed to make mentioned that all of the
evidence the Petitioner submitted in the Federal
pleadings that support his factual allegation.

Shophar's pleading should not be interpreted as
conclusory

nature

because

the

docket

clearly

demonstrates all of evidence supplied to the Court by
the Petitioner that offered a realistic and factual
assertion coupled with substantial evidence.

The

evidence was so effective that the Kansas District

44

Court allowed the case to sustain for almost 2 years
and the Federal Court made mentioned that he
wanted to give the Petitioner his day in court.

In

addition, the District Court allowed Petitioner to add
joinders which included Krissy Gorski the nucleus
that brought all of the Defendants into this matter.

The timing of the dismissal is questionable. In May
of 2017, Petitioner filed affidavits on his Federal
Cases that provided sexual explicit statements made
by the Petitioner's children (4 and 5 at the time)
which

demonstrated

possible

child

exploitation

under the care of Krissy Gorski. In addition, it also
demonstrated the unclean hands of the Defendants'
who failed to protect the Petitioner's children by
placing the children with the mother although risk
factors were present.
2017,

In the beginning of June of

the District Court dismissed both cases

completely granting the strategic defense "failure to
state a claims and immunity."

The District Judge was faced with set of facts along
with evidence that were beyond the legal deficiency,

45

content writing or devoid of citation,

A judicial

discretion of justice should have reigned before a
legal strategic defense by the Defendants. Justice is
greater than a legal defense that is based on a
procedure.
■ “A court faced with a motion to dismiss a pro se
complaint must read the complaint’s allegations
expansively, Haines v. Kerner 404 U.S.519, 52021, S. Ct. 594, 596, 60 L.Ed. 2d 652 (1972), and
take them as true for purposes of deciding
whether they state a claim. Cruz v.Beto, 405 U.S.
319, 322, 92 S. Ct. 1079, 1081, 31 L. Ed. 2d
263(1972).

Jenkins v. McKeithen, 395 U.S. 411, 421 (1959),'
Picking v. Pennsylvania R. Co., 151 Fed 2nd 240,'
Pucket v. Cox, 456 2nd 233. Pro Se pleadings are
to be considered without regard to technicality,'
pro se litigants pleading are not to be held to the
same high standards ofperfection as lawyer.

Picking v. Pennsylvania Railway, 151 F.2d. 240,
Third Circuit Court ofAppeals

46

The plaintiffs civil rights pleading was 150 pages
and described by a federal judge as "inept".
Nevertheless, it was held "Where a plaintiffpleads
pro se in a suit for protection of civil rights, the
Court should endeavor to construe Plaintiffs
Pleadings without regard to technicalities."

Elmore v McCammon (1986) 640 F. Supp. 905
'the right to file a lawsuit pro se is one of the most
important rights under the constitution and laws.

The Petitioner submitted over dozens of exhibits
that

contained

sufficient

factual

matter

that

coincided with the factual statements asserted by
the Petitioner, including audio recordings, and video
recordings.

The Petitioner clearly demonstrated

that the Defendants committed fraud of the county
court and partnered with Krissy Gorski to violated
his parental rights with his children.

The Defendants did not have legal grounds to
deprive Petitioner rights to his children, deprive
right to visitation, deprived parental custody right,

47

deprived medical and education knowledge and
finally conspired a plan to separate the Petitioner
from his children all together.

Evidence can state a

claim far more than just making factual statements.
The Petitioner's evidence proved the case that Krissy
Gorski committed fraud of the court and the
Defendants had no legal right to deprive the
Petitioner his children in any type of aspect.

This

assertion preserves issues for review because justice
was never afforded to the Petitioner. The standard
of review used was de novo which the Courts could
have used another standard review for the sake of
justice.

There was plenty of substantial evidence

that proved Plaintiff was falsely accused and the
outcome of all the judicial proceedings and conduct
of the Defendants' were unjust.

The errors and

judicial corruption made in the Court of law in
Kansas resulted in the Petitioner being punished by
being deprived his children, a tarnished reputation,
and many losses in his life.

Petitioner was provided by the Tenth Circuit an
outline in the form a questionnaire to the Petitioner

48

in order to complete his brief,

The Petitioner

answered the questions accordingly as a Pro Se. The
appeal panel emphasizing on Petitioner's pro se
status, makes mentioned, "that they could not serve
as the Petitioner's advocate."

This statement can

make some implication of a disregard of his status.
A pro se status is just as important and has value in
comparison to an attorney.

A pro se does not litigate for retainers but litigates in
most cases for justice.

Justice is the driving force

that compels the pro se to dive into a realm of the
unknown in order to find justice at all cost.

The

Constitution and its law gives value to all. As a pro
se status, regardless of the form of legal writing, has
the right to an appeal and a review under the
Constitution and its law. The Constitution protects
citizens

from

injustice

and

violations

of

constitutional rights in court proceedings.

Jenkins v. McKeithen, 395 U.S. 411, 421 (1959)/
Picking v. Pennsylvania R. Co., 151 Fed 2nd 240,’
Pucket v. Cox, 456 2nd 233. Pro Se pleadings are

49

to be considered without regard to technicality
pro se litigants pleading are not to be held to the
same high standards ofperfection as lawyer.

The Kansas District Court and the Tenth Court
abuse their discretion and error in dismissing the
Petitioner's

complaint

which

had

substantial

evidence that could have served as stating a claim.
Justice was not afforded to the Father and his
children. The parental rights of the Father are still
being violated, his children have qnd are being
sexual exploited by the mother Krissy Gorski and
the Petitioner's name is wrongfully tarnished by
false allegations. Controversial issues are ever so
present unresolved in any Court of law in the United
States of America.

Federal laws have a vital impact how States are
funded and required to deliver protection to families
and children of the United States. The Federal laws
protect the liberty and freedom of the families in the
United States.

However, families have become

victims to the States through continual violations to

50

rights

guaranteed

by

Federal

Constitution of the United States.

law

and

the

Families and

children in America have become a target by the
States and their State Actors, State Agencies, State
partners to interfere with the family unit; not to
protect them but to destroy them in order to gain
Federal Funding that is given for the purpose.

Constitution law should be the legal binding to
determine an appeal. Doctrines of law, standards of
review

should

not

take

precedent

when

Constitutional parental rights have been violated.

II. Reasons for Granting the Petition
The future generation of America is at risk and it is
in the best interest of this Court to address this
national crisis that is plaguing Fathers and their
children. If not addressed, America as a Nation will
ultimately lose its sovereignty. America’s strength
depends on healthy families that raise children that
can continue the legacy of America.

51

Research is clearly proclaiming that the absence of a
Father in a child’s life causes long lasting negative
impacts that effects society, communities, cities,
states and the core of a nation.

A Father is the anchor to his children and when his
presence is absent children suffer and so does a
Nation.

Research

results

about

“fatherless

children”: lower educational attainment or success,
incarceration, drug use, suicidal, poverty, drug
trafficking, behavior issues, teenage pregnancy,
violence, murders, the list continues...

If the focus to keep Fathers in their children lives is
not a priority or protected, the Nation is left to
father dysfunctional grown adults and the Nation’s
economy, stability and sovereignty is threatened.

There is a false narrative that many Fathers are by
choice absent in their children lives.

There are

many Fathers that desire to raise and be a part of
their children’s lives. However, mothers, family law
court, state statutes, court services, policies, state

52

actors,

state

agencies,

officers

of

the

court,

unconstitutional orders, also bear the burden for
“Fatherless children epidemic.”

The majority of Fathers are not afforded due process,
equal protection of the law and are discriminating
based on their gender and even their race especially
if they are “African American”. The parental right of
a mother is regarded as superior over the Father.

Many Fathers are victims of fraud of the Courts, as
in this case. Many mothers have used the family
court platform as a weapon against the fathers.
Mothers involve the court to maliciously obtain court
orders to alienate fathers from their children. As in
this case, the mother violated the parental rights of
the Petitioner by falsely accusing him of abuse in
order to gain sole custody immediately.

Without due process or substantial evidence, the
Petitioner was deprived rights to his children. Many
Fathers have experience this injustice and have been
deprived custody, visits, or rights to their children

53

for weeks, months, years even until the child is
eighteen years old. Fathers are obligated and have
many hurdles to jump in order to regain access to
their children and custody rights. Father instead are
being enslaved by high child support obligations yet
are

stilled deprived visitation,

rights or even

custody.

Mothers are given many federally funding resources
and have the advantage over the father. Many
mothers are not penalized for using the court
fraudulently to gain custody.

Those that are given

the authority over families in the lower courts
should not be allowed to commit wrongful acts to
violate a Fathers right to his children. Policies and
statutes are not to be enforced if they violated the
Constitution of the United States of America that
protects and guarantees parental rights to Fathers.
Fathers are treated as second class and their rights
are not treated as equal to a mother.

This case service as a national interest for many
fathers’ that are victims to deprivation of their

54

children.

There is an epidemic that plagues this

nation of “fatherless children”. This case sheds light
on a national dilemma that is causing fatherless
children.

Conclusion
The Petitioner prays that this Court grant the Writ
of Cert in order to bring balance and equality for
Fathers in the United States of America. The right
of mother should not be treated as superior over a
Father.

It is also in the interest of justice and the

best interest of the safety of the children, that this
Court should grant the Writ of Cert. There should be
laws for assurance that false allegations brought
forth by mother in the Court of law should not be
ignored but penalized. Fathers should be given fair
and impartial court proceedings and be given the
opportunity to fight for their children with all
fairness and equal protection of the law along with
the most high due process right.

It would be a disgrace if the Petitioner was not given
the opportunity to obtain any legal platform in the

55

United States of America to find justice in protecting
his children from a false accusing mother who
eventually trafficked her own children and those
that had the authority to protect them willing placed
them in danger by committing obstruction of justice
to protect their positions, constituents, titles and the
State of Kansas' reputation.

The State of Kansas should be reviewed due to their
continual oppression of families with obstruction of
justice in order to continually receive Federal
Funding. There should be oversight of the conduct
by state agencies, state actors, and many more who
are obligated to protect and serve families with
integrity and justice.
Respectfully submitted,

^orfdSnophar, pro se
35560 Grand River Ave. Unit 265
Farmington Hills, Michigan 48335
(248) 974-1300
Shophar@UnitedStatesChurch.info

56

